    U.S. DEPARTMENT OF COMMERCE

 
            Office of Inspector General

 


        Office of the Secretary


                   Top Management
                Challenges Facing
    the Department of Commerce

                    Final Report OIG-19884
                                January 2010




            Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230




January 12, 2010


MEMORANDUM FOR THE SECRETARY


                 '!fft00·]~
FROM:            Todd J. Zinser


SUBJECT: Top Management Challenges Facing the Department


The Office of Inspector General (OIG) is required by statute to annually report the
top management challenges facing the Department of Commerce.! We regularly
discuss the Department's progress in meeting these challenges in our Semiannual
Report to Congress and in the Department's Performance and Accountability Report.

Our report identifies five management challenges as follows:

      1.	 Decennial Census: Mitigate issues with the 2010 decennial while

          addressing future census challenges.


      2.	 IT Security: Continue enhancing the Department's ability to defend its
          systems and data against increasing cyber security threats.

      3.	 National Oceanic and Atmospheric Administration (NOAA)
          Environmental Satellites: Effectively manage technical, budgetary, and
          governance issues surrounding the acquisition of NOAA's two environmental
          satellite programs.

      4.	 American Recovery and Reinvestment Act: 2 Meet the challenges of
          accountability and transparency with effective oversight of program
          performance, compliance, spending, and reporting.

      5.	 United States Patent and Trademark Office: Address the Patent Office's
          resource and process issues.

In addition, our report identifies several organizational priorities facing the
Department in the coming year. These include strengthening major systems
acquisitions, the grant and contract workforce, and centralized Departmental

1   31 U.S.C. § 3516(d) (2000).

2   American Recovery and Reinvestment Act of 2009, Pub, L. No. 111-5.

 


management; implementing the proposed NOAA headquarters leadership
structure; and ensuring that the multi-year nearly $1 billion Commerce
headquarters renovation receives strong Departmental oversight from the
beginning.

Since we released our 2008 Top Management Challenges Report, we have updated
three long-standing major challenges: the decennial census, the Department’s
ability to cope with cyber threats, and NOAA’s environmental satellites. The
challenge to meet Recovery Act requirements is a new addition to the list, and the
issues with the United States Patent and Trademark Office’s resource and quality
control have been re-evaluated as a major challenge. The organizational challenges,
too, have been updated and expanded in scope to reflect the need for increased
Departmental oversight.

We also removed two major challenges that appeared in the 2008 report:

       •	 After a June 2008 plutonium spill at the National Institute of Standards and
          Technology’s (NIST’s) Boulder campus revealed serious deficiencies in
          management oversight, employee training, and response procedures, NIST
          has worked to meet to the numerous safety and training recommendations
          made by outside reviewers and inspectors from regulatory authorities. NIST’s
          actions culminated in approval from the U.S. Nuclear Regulatory
          Commission to reopen the lab in July 2009. NIST management is committed
          to making safety a priority, and in the coming year we plan to assess the
          agency’s progress in establishing an effective safety culture.

       •	 The National Telecommunications and Information Administration (NTIA)
          has largely fulfilled its responsibilities under the Digital Television
          Transition and Public Safety Act and is conducting the public safety
          interoperable communications (PSIC) program without significant issues.
          The switch to digital television signals took place on June 12, 2009, and the
          last day to apply for a coupon was July 31. We reported on the time
          constraints imposed upon PSIC grantees; subsequently, the President signed
          legislation in November 2009 extending the statutory deadline to September
          30, 2011.3 The extension will enable PSIC grantees to complete their projects
          on time while meeting the requirements for transparency, compliance, and
          reporting.

 




                                                            
3   An Act, Pub. L. No. 111-96, § 1(b) (2009).

                                                               2
 
 
 


While our report focuses on                            Secretary’s Strategic Priorities 
management challenges and risk
areas specific to the Department
of Commerce, the Department         I. Innovation and                                     II. Green and Blue 
also plays a pivotal role in the    Intellectual          Property                        Business and Jobs 
President’s national priority of
                                    III. Trade Promotion 
economic growth and job creation.                                                     IV. Effective, Efficient 
                                    and Commercial  
We note your recent meeting with                                                           Service Provider 
the career leadership of the        Diplomacy 
Department, during which you        Source:  Department of Commerce Strategic Priorities as of December 9, 2009. Follow Up to All‐
                                    Hands Senior Professionals Meeting held on December 3, 2009. 
outlined your strategic priorities
and management expectations for
the year ahead in promoting “Competiveness through Innovation, Jobs and
Growth.”

These strategic priorities were also presented as part of a model that is intended to
move away from the view of the Commerce Department as a “holding company of
disparate bureaus,” to a more integrated Department that leverages the strengths
of its various bureaus to achieve the goals you have outlined. Our management
challenges report underscores this vision and the emphasis placed by you and the
Deputy Secretary on the need for strong and integrated Departmental
management.


                                                                                                                         
                                                                        Commerce Department:
                                                                   Competitiveness Through Innovation, 
                                                                            Jobs and Growth

                       INNOVATION                                             COMMERCIALIZATION            COMPETITIVENESS 

                        New Ideas for Future                                             Turning Ideas Into                                     Jobs Through Fair 
                                Business                                                          Jobs Across the US                           Trade and Growth 



                                                                         Sustainability and Support 


                                        Enabling Stewardship                                                                            Evaluating Growth 
                                      and Leveraging Science                                                                      Understanding Markets 
                                                      (NOAA)                                                                                            (ESA/Census) 

                                                                     Supporting Businesses and 
                                                               Entrepreneurs Throughout the Life‐Cycle 

                      Source:  Department of Commerce Strategic Priorities as of December 9, 2009. Follow Up to All‐Hands Senior Professionals Meeting held 
                      on December 3, 2009.  



 




                                                                                                            3
 
 
 


We also recognize the broad scope of the policy issues facing the Department. The
partial list below, communicated to the senior leadership in your recent meeting,
illustrates the complexity and far-reaching effects of these issues and emphasizes
Commerce’s need to address the top management challenges directly and
appropriately.



                                    Breadth of Commerce‐Related Policy 

              

             US‐China Economic Relationship                          Smart Grid 
             International Trade Policy                              Broadband Deployment/Mapping 
             Export Promotion                                        Access to capital 
             Alternative Energy Technologies                         Infrastructure grants 
             Commercial Diplomacy                                    Regional cluster initiatives 
             Effective Census Management                             Corporate tax reform 
             US Auto Restructuring                                   ICANN – Internet issues 
             Innovation                                              Spectrum Management  
             Health Care                                             Biotech leadership 
             Climate Change Leadership                               DOC Service Reform –“one‐stop” 
             Technology/Innovation                                   Weather Satellites 
             Export Control Reform                                   Promotion of Service Economy 
             Worker Training/Re‐Training                             US‐Russia Commercial Relationship 
             Patent Reform                                           Cybersecurity  
             Visa Reform                                             Improvement of Economic Analysis 
             Salmon Recovery                                         Trade Advocacy  
                                                            

             Source:  Department of Commerce Strategic Priorities as of December 9, 2009. Follow Up to All Hands 
             Senior Professionals Meeting held on December 3, 2009.  




We appreciate the support you and the Deputy Secretary have demonstrated for
strong oversight of Department programs and operations. We look forward to
working with you, the Deputy Secretary, and Secretarial Officers in the coming year
on the management challenges facing the Department.

If you have any questions concerning this report, please contact me at (202) 482-
4661.




                                                               4
 
 
U.S. Department of Commerce                                                                          Final Report OIG-19884 

Office of Inspector General                                                                                    January 2010 





                                                         Contents


Decennial Census ....................................................................................................... 1 

    Mitigate Issues with 2010 Decennial While Addressing Future Census
    Challenges
IT Security ................................................................................................................... 7 

    Continue Enhancing the Department’s Ability to Defend Its Systems and Data
    against Increasing Cyber Security Threats
NOAA Environmental Satellites ........................................................................... 11 

    Effectively Manage Technical and Budgetary Problems Surrounding the
    Acquisition of NOAA’s Two Environmental Satellite Programs
American Recovery and Reinvestment Act........................................................ 15 

    Meet the Challenges of Accountability and Transparency with Effective Oversight
    of Program Performance, Compliance, Spending, and Reporting
United States Patent and Trademark Office ..................................................... 20 

    Address the Patent Office’s Resource and Process Issues
Other Challenges for the Department of Commerce ....................................... 22 

Acronyms and Abbreviations ................................................................................ 26 





 
U.S. Department of Commerce                                       Final Report OIG-19884 

Office of Inspector General                                                 January 2010 



Decennial Census
Mitigate Issues with 2010 Decennial While Addressing Future Census
Challenges


Described by the Census Bureau as the nation’s largest non-military mobilization,
the decennial census is a carryover from our last year’s top management challenges
report and continues to be on the Government Accountability Office’s (GAO’s) high-
risk list.
Over the past year, OIG reports and Congressional testimony have detailed the
challenges faced by the Census Bureau as it executes the 2010 decennial count of
U.S. residents. The mission of the 2010 decennial census—to count each of the over
300 million people in more than 130 million households in the United States once,
only once, and in the right place—is a daunting task. Conducting a successful count
of U.S. residents involves (1) identifying all structures where people might reside
and accurately depicting them on Census maps, (2) determining and employing the
best method of enumerating people living in those structures, and (3) accurately
reporting the findings within statistical and political boundaries.
We have spent the last several years monitoring the bureau’s progress and
reporting on setbacks Census has experienced. Significantly, the serious problems
in developing the Field Data Collection Automation (FDCA) system prompted
Census’s April 2008 decision to abandon use of the handheld computers for
nonresponse follow-up while focusing resources on ensuring that the handhelds
could support address canvassing.


Development of an Automated System to Control Paper-based Field
Operations Is a Top Priority for the Bureau
With a life-cycle cost estimate now projected to total $14.7 billion, the 2010 Census
is a massive undertaking. The bureau completed address canvassing, its first major
2010 decennial census field operation, on July 10, 2009. Costing $444 million,
address canvassing involved hiring and deploying more than 140,000 temporary
workers, called listers, to use handheld computers to verify and update the address
lists and maps. Address canvassing is a crucial operation because an accurate
address list is vital to a successful census. Address canvassing completed faster
than anticipated, although concerns we have raised about the list’s quality suggest
additional actions must be taken to ensure a complete and accurate census—such as
comparing the current address list against administrative records data to help
identify errors and possibly add missing addresses in certain instances.
Nonresponse follow-up (NRFU), estimated to cost $2.7 billion, is the most costly
decennial operation, requiring census takers to visit every household that does not


                                         1
 
U.S. Department of Commerce                                         Final Report OIG-19884 

Office of Inspector General                                                   January 2010 



return a census form and record answers to the form’s questions. The bureau must
lease and equip 494 local offices and hire management staff to recruit over 600,000
temporary workers. The success of NRFU hinges on how effectively Census
manages the massive NRFU workload and workforce. This depends, in turn, upon a
well-functioning operations control system.
Described by the bureau as the “nerve center” of its field offices, the operations
control system is used to assign and monitor enumerator workload and
productivity. Originally a component of the FDCA contract, the operations control
system was going to be developed to support use of the handheld computers for
NRFU as well as several smaller paper-based operations, such as enumeration in
rural areas where forms are hand delivered for mail return or where doorstep
enumeration occurs. However, the decision to use a paper-based process, rather
than handheld computers, for NRFU required modification of the operations control
system to handle paper NRFU data collection forms. Census also decided to take
over development of the paper-based operations control system (PBOCS) from the
FDCA contractor.
Because Census revised its initial strategy, it is on a very tight schedule to complete
PBOCS. Further, the system must work compatibly with other 2010 Census
systems and the existing infrastructure provided by the FDCA contractor, adding
significant integration and deployment challenges.
As a result of the highly compressed schedule, the system will undergo less testing
than desirable. And once deployed, there is no margin for error. Hundreds of
thousands of NRFU enumerators must be able to receive and submit completed
assignments, and the bureau must be able to monitor progress. Documented
contingency plans currently do not exist, and in the event PBOCS experiences
serious operational problems or failures, the decennial schedule would be seriously
jeopardized and costs would surely increase. Successful PBOCS development,
testing, and implementation represent one of the most significant decennial
challenges facing the Department.


The Bureau Faces Several Additional Challenges
The decennial census provides important information that will guide the
apportioning of Congressional representation and redistricting, as well as the
distribution of more than $400 billion of government funding annually. Because
these population data are so crucial, the bureau must address the following matters
in order to conduct a successful census:
   •	 Nonresponse Follow-up Budget. According to the Census Bureau, a 1-percent
      increase in the mail-back response rate can save an estimated $80 to
      $90 million. Census’s efforts to increase the response rate and the public’s
      willingness to mail back its questionnaires can significantly impact NRFU
      costs. The bureau is making efforts to increase the response rate through


                                           2
 
U.S. Department of Commerce                                        Final Report OIG-19884 

Office of Inspector General                                                  January 2010 



       media and partnership activities, but its ability to influence public response
       is unpredictable. It can, however, take measures to more accurately estimate
       and contain NRFU costs compared to address canvassing, which finished 25
       percent ($88 million) over budget.
       According to Census officials, the overrun was primarily due to higher-than-
       estimated workload and incorrect cost assumptions. Following the canvassing
       operation, Census initiated a review to reassess NRFU budget assumptions
       and estimates. Because of NRFU’s massive scale, small errors in estimation
       could result in an even larger overrun. It is critical that the bureau provide
       estimates that are as accurate as possible and ensure cost-effective
       management decisions for this operation.
   •	 Hard-to-Enumerate. Multiple efforts are made to identify and count hard-to-
      enumerate populations. With the help of Recovery Act funds, Census was
      able to increase its partnership allocation from 680 to 2,241 positions, and
      emphasized placing the positions in hard-to-enumerate areas. Census quickly
      filled these positions; however, given the large increase in positions, ensuring
      the adequacy of supervisory and management controls should be a focus for
      Census management.
       In addition, the housing foreclosure crisis has created a “new-to-homeless”
       group whose members may reside with other families, live in cars, or occupy
       newly created “tent” cities. A new partnership effort is being implemented to
       identify these new non-shelter homeless areas, but actually counting this
       population may prove difficult.
   •	 Public Participation and Concurrent Data Collection Efforts. Census must
      strive to increase public participation during the decennial count as well as
      educate the public and data users about the other surveys that it conducted
      throughout the decade. These surveys, measuring unemployment and socio-
      economic indicators, overlap with the decennial, resulting in a massive 2010
      collection effort and the dissemination of multiple annual or multi-year
      estimates reflecting the same geographic areas. Analyzing and explaining the
      sometimes disparate results will be challenging.


The Groundwork for an Improved and Cost-effective 2020 Decennial Census
Should be Set in 2010
The cost of the decennial census has doubled every decade since 1970 (not adjusted
for inflation). On the current trajectory, the price of the 2020 census could total
more than $30 billion. Given today’s economic climate, mounting federal deficits,
and constrained federal budgets, Census must find ways to rein in costs while
maintaining or enhancing accuracy. It is crucial for the bureau to lay the
groundwork for the 2020 census in calendar year 2010. Even though its workforce is
already stretched thin by 2010 operations, Census is beginning to develop its plans


                                          3
 
U.S. Department of Commerce                                       Final Report OIG-19884 

Office of Inspector General                                                 January 2010 



for 2020. The bureau must work with the Department to apply lessons learned from
the 2010 process and develop an innovative, flexible, cost-effective, and transparent
approach to the 2020 census.
In our November 2008 Top Management Challenges Report, we described the
Census Bureau, especially its headquarters, as an insular organization that
eschews open dialogue with outside parties and even its own regional offices. For
instance, when deciding to use handhelds for decennial field automation—viewed by
the bureau as a huge operational transformation—the bureau showed little
appreciation for the time and effort involved in gaining buy-in for significant
business process changes from Census staff. In addition, the bureau was not
transparent; it was not forthcoming with the Department, Congress, OIG, or other
oversight agencies about the problems it was experiencing in developing handheld
computers.
Bureau culture tends to regard the decennial as so unique that external parties
cannot add value to Census’s internal practices. This outlook hampers the bureau’s
ability to keep pace with private sector advances in business process improvement
and gain insight into how these advances can benefit census operations. The bureau
should leverage the research and development efforts conducted by other national
statistical agencies, private industry, its own advisory committees, and independent
researchers to develop new approaches to the creation of national population
statistics. Serious consideration should be given to the use of such alternatives as
administrative records, the Internet, and targeted address canvassing for various
aspects of the decennial.
To accomplish a successful redesign, the bureau must be more flexible and
responsive to Commerce and external feedback and collaboration, as well as
transparent and performance driven. The significant changes that must take place
will need years of innovative thinking and actions, as well as Departmental
support.


For more information, view the reports and testimony listed below at
www.oig.doc.gov:
   •	 2010 Census: Quarterly Report to Congress (OIG-19791-2, December 2009)
   •	 FY 2009 Financial Statement Audits (FSD-19651, December 2009)
   •	 The 2010 Census: Update of Key Decennial Operations, IG’s testimony before
      the Senate Committee on Homeland Security and Governmental Affairs,
      Subcommittee on Federal Financial Management, Government Information,
      Federal Services, and International Security (October 2009)
   •	 The 2010 Census and Integrated Communications Campaign, Principal
      Assistant IG for Audit and Evaluation’s testimony before the House




                                          4
 
U.S. Department of Commerce                                     Final Report OIG-19884 

Office of Inspector General                                               January 2010 



       Committee on Oversight and Government Reform, Subcommittee on 

       Information Policy, Census, and National Archives, (September 2009) 

    •	 Memorandum to Director, Bureau of the Census, with Recommendations
       from 2010 Census: First Quarterly Report to Congress (OIG-19791-l, August
       2009)
    •	 2010 Census: First Quarterly Report to Congress (OIG-19791-1, August 2009)
    •	 Problems Encountered in the Large Block Operation Underscore the Need for
       Better Contingency Plans (OIG-19171-02, August 2009)
    •	 Observations and Address Listers’ Reports Provide Serious Indications That
       Important Address Canvassing Procedures Are Not Being Followed (OIG-
       19636-01, May 2009)
    •	 Census 2010: Revised Field Data Collection Automation Contract 

       Incorporated OIG Recommendations, But Concerns Remain Over Fee 

       Awarded During Negotiations (CAR 18702, March 2009) 

    •	 Census 2010: Delays in Address Canvassing Software Development and
       Testing, Help Desk Planning, and Field Office Deployment Have Increased
       Operational Risk (OIG-19171, February 2009)
    •	 2010 Decennial Census: Dress Rehearsal of Address Canvassing Revealed
       Persistent Deficiencies in Approach to Updating the Master Address File
       (OSE-18599, October 2008)
    •	 2010 Decennial Census: Census Should Further Refine Its Cost Estimate for
       Fingerprinting Temporary Staff (OIG-19058-1, August 2008)
    •	 2010 Decennial Census: OIG Reviews Through the Decade Identify 

       Significant Problems in Key Operations (OIG-19217, June 2008) 

    •	 2010 Census: Key Challenges to Enumerating American Indian Reservations
       Unresolved by 2006 Census Test (OSE-18027, September 2007)
    •	 Enumerating Group Quarters Continues to Pose Challenges (IPE-18046,
       September 2006)
    •	 Valuable Learning Opportunities Were Missed in the 2006 Test of Address
       Canvassing (OIG-17524, March 2006)
 
The following reviews are in progress:
    •	 Reviews of 2010 Address Canvassing Operations, Including Activities

       Related to the American Recovery and Reinvestment Act 

    •	 Address Canvassing Payroll
    •	 Analysis of FDCA Problems



                                         5
 
U.S. Department of Commerce                                    Final Report OIG-19884 

Office of Inspector General                                              January 2010 



   •	 Distribution of Communications Campaign Promotional Materials to Census
      Partners
   •	 FISMA Evaluation of Census Certification and Accreditation
   •	 Review of Address Canvassing Lister Travel Claims
   •	 Review of Communications Campaign Contract
   •	 Decennial Response Integration System
   •	 2010 Census: Quarterly Report to Congress
   •	 Review of the Proposals and Purchases Related to the direct Partner Support
      and Special Initiatives Components of the Partner Support Program
   •	 2010 Group Quarters Validation Operation’s Impact on Producing a High-
      quality Address List
   •	 Review of the 2010 Partnership Program and American Recovery and
      Reinvestment Act Spending




                                        6
 
U.S. Department of Commerce                                         Final Report OIG-19884 

Office of Inspector General                                                   January 2010 



IT Security
Continue Enhancing the Department’s Ability to Defend Its Systems and
Data Against Increasing Cyber Security Threats


Cyber attacks and security threats are on the rise, and the Department must
improve its ability to cope with them. We have been monitoring Commerce’s
progress toward implementing effective IT security for years, and while the
Department has put forth extra effort toward reinforcing its defenses, there is still
more to be done.
Preventing, detecting, and responding to IT security incidents are complex
endeavors. A key aspect of the IT security challenge is maintaining and enforcing
effective IT security policies across the Department. Commerce operating units
have separate management structures that preclude direct accountability to the
Department’s Chief Information Officer (CIO). This decentralization gives its CIO
only limited authority over the daily management of IT security at Commerce’s
operating units and adds complexity to Department-wide information security
initiatives.


Commerce Should Take Steps to Strengthen Its IT Security Workforce
In a recently completed audit, we found that the Department needs to devote more
attention to the development and guidance of its IT security personnel who protect
the Department’s sensitive computer systems and information. For example, few of
the operating units we reviewed were taking the necessary steps to meet training
requirements or keep accurate training records. Moreover, professional
development plans were not generally used. We also found that IT security
certifications are not required and are not consistently held by staff members.
On the whole, performance management and accountability need to improve. We
found several instances in which IT security responsibilities were not included in
the formal performance plans of employees with significant security responsibilities.
We recommended Commerce implement a Department-wide plan to address the
deficiencies identified in the audit. The Department concurred with our findings
and is taking steps to address our recommendations, including developing an
enterprise-wide IT security workforce improvement plan.


OIG/Department Plan to Resolve Material Weakness in IT Security Is
Progressing, but More Efforts Will Be Necessary
Over the years, we have concentrated on the certification and accreditation (C&A)
processes, including continuous monitoring, for the approximately 300 systems at


                                          7
 
U.S. Department of Commerce                                                      Final Report OIG-19884 

Office of Inspector General                                                                January 2010 



the Department. The Federal Information Security Management Act of 20021
(FISMA) requires agencies to certify that their systems and data are protected with
adequate, functional security controls before systems are authorized (accredited) to
operate, but consistent processes that ensure security controls are implemented
correctly, operating as intended, and producing the desired result are still an issue
for many operating units.
In a continuing effort to resolve Commerce’s long-standing IT security material
weakness,2 in April 2008, OIG and the Department produced a joint plan to
enhance the quality of system C&A. The plan, intended for completion at the end of
2009, called for the development of standard test cases for assessment of security
controls, an emphasis on continuous monitoring, an automated tool to standardize
C&A processes, and quarterly briefing to the Department’s Senior Management and
CIO councils. While most of the milestones in the plan have been met, the
implementation of the Department’s automated Cyber Security Assessment and
Management (CSAM) tool has been delayed. CSAM is a software application that is
expected to provide greater consistency, transparency, and tracking to the C&A
process across all Commerce operating units.
Commerce took additional steps in FY 2008 and FY 2009 to improve IT security.
The Department has updated its IT security program policy and implemented a
review process, based on lessons learned from prior OIG evaluations, to help ensure
that C&A packages conform to the policy and the applicable National Institute of
Standards and Technology (NIST) standards and guidelines upon which
Commerce’s security policies are based. It also has established a security operations
center for the Herbert C. Hoover building in Washington, D.C., and strengthened
security controls protecting Commerce’s headquarters network. Commerce has
partnered with several U.S. government intelligence agencies to mitigate cyber
security threats and address some of its most serious cyber security concerns.
The Department deployed CSAM and conducted a pilot project, using it to certify
and accredit three systems. It found that CSAM will need some additional
development before it can effectively support the C&A process. Commerce is
working with the developer (the Department of Justice) to include needed
enhancements in future releases.
In FY 2009, we evaluated six systems from different (non-USPTO) operating units
for compliance with FISMA requirements, including on-site technical testing on five
of the systems. We found that four systems did not meet FISMA requirements. In
addition, we identified vulnerabilities in technical security controls that leave
critical Department systems and data at risk for external and internal malicious

                                                            
1 Pub. L. No. 107-347, Title III, §§ 301-302, 44 U.S.C. §§ 3541-3549, 40 U.S.C. § 11331 (2000).
2 A material weakness is a management control deficiency that the agency head determines to be
significant enough to be reported outside the agency (i.e., included in the annual Integrity Act report
to the President and Congress, Federal Managers’ Financial Integrity Act of 1982, Pub. L. No. 97-
255 (codified as amended in scattered sections of 31 U.S.C.)).


                                                               8
 
U.S. Department of Commerce                                          Final Report OIG-19884 

Office of Inspector General                                                    January 2010 



attacks including denial of service, data alteration, data theft, and installation of
malicious software capable of launching cyber attacks against other Commerce
systems.
Despite continued progress in resolving the overall material weakness, we
recommended and the Department agreed that the material weakness should stand
until more improvements are made.


USPTO Systems Evaluated in FY 2009 Met FISMA Requirements but the
Agency Still Needs to Demonstrate a Consistent, Effective C&A Process
The two USPTO systems we evaluated in FY 2009 both met FISMA requirements.
These were the first systems to do so since we recommended that USPTO report IT
security as a material weakness in 2005. USPTO does appear to have enhanced its
C&A process: it now has C&As independently verified and validated before making
accreditation decisions, and has also improved documentation of its control
assessments and results.
Despite improvements in USPTO’s security program, we did not have sufficient
evidence to recommend removal of the material weakness. In our view, USPTO has
not demonstrated a consistent, effective process for C&A, including defining secure
configurations for underlying virtual technologies or assessing controls on such
components. These are issues we have pointed out previously. Nevertheless, USPTO
management determined that the IT security issues have been adequately resolved
and did not report IT security as a material weakness in its FY 2009 Performance
and Accountability Report.
USPTO has made significant changes in defining its systems’ boundaries and plans
to recertify and accredit at least 20 of 31 operational systems, and certify and
accredit five new systems in FY 2010; this will significantly test the bureau’s ability
to manage IT security in accordance with FISMA requirements.


Oversight of Contractors Is an Important Part of IT Security
The Department relies on contractors for all aspects of administration and
maintenance of IT systems, development of IT security policies and procedures, and
C&A of IT systems. This, too, presents a challenge because contractors sometimes
do not have the desired degree of technical knowledge or an appropriate
understanding of Commerce’s IT security policies.
As a result, the Department needs to make certain that contractors who are
involved with any aspect of IT security have proper expertise and training, and the
Department must provide clear direction and close oversight. This is another area
where the decentralized structure of the Department has led to inconsistency—we
have noted that operating units use different approaches to managing IT security
contractors and systems, with varying results.


                                           9
 
U.S. Department of Commerce                                      Final Report OIG-19884 

Office of Inspector General                                                January 2010 





For more information, view the reports listed below at www.oig.doc.gov:
   •	 FISMA Evaluation of NOAA Environmental Satellite Processing Center
      (OAE-19730, January 2010)
   •	 FISMA Evaluation of the Census Bureau’s Field Data Collection Automation
      System (OAE-19728, November 2009)
   •	 FISMA Evaluation of USPTO’s Enterprise UNIX Services System (OAE-
      19729, November 2009)
   •	 FISMA Evaluation of USPTO's Patent Cooperation Treaty Search 

      Recordation System (OAE-19731, November 2009) 

   •	 Commerce Should Take Steps to Strengthen Its IT Security Workforce (CAR
      19569-1, September 2009)
   •	 FY 2009 FISMA Assessment of BIS IT Infrastructure (OSE-19574, 

      September 2009) 

   •	 FY 2009 FISMA Assessment of Bureau Export Control Cyber Infrastructure,
      Version 2 (OSE-19575, September 2009)
   •	 FY 2009 FISMA Assessment of Application Systems and Databases (OSE-
      19512, August 2009)
   •	 FY 2009 FISMA Assessment of Manufacturing Engineering Laboratory
      Managed Infrastructure (OSE-19511, August 2009)




                                        10
 
U.S. Department of Commerce                                                Final Report OIG-19884 

Office of Inspector General                                                          January 2010 



NOAA Environmental Satellite Programs
Effectively Manage Technical, Budgetary, and Governance Issues
Surrounding the Acquisition of NOAA’s Two Environmental Satellite
Programs


NOAA is modernizing its environmental monitoring capabilities, in part by
spending billions of dollars on two critical satellite systems, the National Polar-
orbiting Operational Environmental Satellite System (NPOESS) and the
Geostationary Operational Environmental Satellite-R Series (GOES-R). Space
acquisitions like NPOESS and GOES-R are highly technical and complex. Such
projects have a history of cost overruns, schedule delays, and reduced performance
capabilities. The NPOESS and GOES-R projects have already suffered significant
cost increases and delays; they require close oversight to minimize further
disruption to the programs and prevent any gaps in satellite coverage. Such gaps
could compromise the United States’ ability to forecast weather and monitor
climate, which would have serious consequences for the safety and security of the
nation.


NPOESS Background
NPOESS will provide continuous weather and environmental data for longer term
weather forecasting and climate monitoring through the coming 2 decades. The
project has been managed jointly by NOAA, the National Aeronautics and Space
Administration (NASA), and the Department of Defense. NOAA and Defense
equally shared the cost of the NPOESS program until FY 2010, when Congress
removed the 50/50 funding requirement in order to allow for more creative funding
decisions to avert critical gaps in climate monitoring and weather forecasting. The
initial project plan called for the purchase of six satellites at a cost of $6.5 billion,
with a first launch in 2008. But problems with a key sensor raised costs and delayed
the date of the first launch to 2013, even as the number of satellites in the system
was reduced to four. By December 2008, the NPOESS total life-cycle cost was
revised to $14 billion. NOAA announced in March 2009 that it would delay the first
launch to 2014 because of continuing problems with the sensor. It also slipped the
planned NPOESS Preparatory Project3 launch date from 2010 to 2011.
In June 2009, findings from an independent review team, coupled with
congressional oversight, prompted a restructuring effort that involves the White
House Office of Science and Technology Policy (OSTP) and the Office of
Management and Budget (OMB).
                                                            
3 The NPOESS Preparatory Project was planned as a risk reduction effort to test out NPOESS’ new
instruments in flight. NASA is the lead in this effort.


                                                               11
 
U.S. Department of Commerce                                                     Final Report OIG-19884 

Office of Inspector General                                                               January 2010 



Also in 2009, NPOESS received $74 million of American Recovery and
Reinvestment Act funds to mitigate cost and schedule risks under the current
contract, and to acquire additional instruments.


Restructuring of the NPOESS Program Is Critical to Its Success
In the spring of 2009, the committee of senior NOAA, NASA, and Defense officials
responsible for overseeing the effort appointed an independent team to examine the
program’s status. The team, comprised of satellite experts from industry, academia,
and government, found that the NPOESS program in its current state has a low
probability of success. The team concluded that the current estimate of $14 billion is
too low, the oversight committee is ineffective, and White House support is needed
to restructure this important program. Because the satellites currently in orbit
cannot be expected to operate past 2014, a delay in the NPOESS program could
result in substantial long-term environmental data gaps.
NOAA, NASA, and Defense are working with OSTP and OMB to restructure the
program, including the governance provided by the three agencies. Developing and
implementing a restructuring plan that enables the NPOESS program to meet the
Nation’s future weather forecasting and climate monitoring needs, mitigate further
delays, and avoid data gaps will be both extremely critical and extraordinarily
challenging.


GOES-R Background
The GOES-R4 system is intended to offer an uninterrupted flow of high-quality data
for short-range weather forecasting and warning, as well as provide climate
research data through 2028. NOAA is responsible for managing the entire program
and for acquiring the ground segment. NOAA awarded the ground segment contract
in May 2009, which has a total estimated value of $736 million if all options are
exercised.
NASA’s Goddard Space Flight Center is responsible for acquiring the spacecraft and
instruments for the project. In December 2008, NASA’s award of the GOES-R
spacecraft contract, total estimated value of $1.1 billion for two spacecraft including
the options for two additional spacecrafts, was protested by the losing bidder. Work
stopped until the protest was withdrawn in August 2009. The protest resulted in a
significant delay to the implementation of the program, with launch readiness for
the two satellites deferred by 6 months. 5

                                                            
4 Since 1975, the GOES series of satellites have provided the United States with critical
meteorological data for weather observation, research, and forecasting. Satellites in production are
given letter designations, which are changed to numbers after the satellites reach orbit.
5 Launch readiness date changes: the first satellite’s launch date has slipped from April 2015 to

October 2015; the second from August 2016 to February 2017.


                                                               12
 
U.S. Department of Commerce                                               Final Report OIG-19884 

Office of Inspector General                                                         January 2010 



In January 2007, an independent review team found that the costs for GOES-R had
been underestimated and that planned satellite capabilities were too ambitious. As
a result, the projected cost of GOES-R increased from $6.2 billion to $7.7 billion, a
major sensor was removed, and the number of satellites to be purchased decreased
from four to two.6


NOAA and the Department Need to Follow Accepted Oversight Procedures
for the GOES-R Acquisition
NASA had the lead management role in the acquisition of previous generations of
GOES satellites, although they are wholly funded by Commerce. With GOES-R,
both NOAA and the Department have taken on new roles—NOAA has the lead
management role over the entire GOES-R program (ground and space segments),7
giving the Department direct oversight responsibility.
Our 2007 evaluation found that significant weaknesses in oversight during earlier
phases of the program led to cost increases and schedule delays. Because GOES-R
was not using an accepted life-cycle process, oversight officials had insufficient
decision-making information. We recommended the Department overhaul its policy
for acquiring major systems. We also advised NOAA to standardize its procedures.
Since that review, NOAA finalized a GOES-R management control plan to address
our recommendation. The Department has been working on a new policy, but it has
not yet been finalized. NOAA and the Department still need to develop effective
interim oversight procedures to manage costs and prevent further setbacks.


NOAA Needs to Work with Congressional Committees on GOES-R Reporting
The Mikulski Amendment to the 2008 Consolidated Appropriations Act8 requires
NOAA to notify Congress9 should GOES-R costs increase by 20 percent or more over
the established baseline. However, the baseline used in the amendment is the
original cost estimate reported in NOAA’s fiscal year 2008 presidential budget
request ($6.9 billion). Subsequently, the program was revamped and the cost
estimate revised.
As we noted in last year’s Top Management Challenges report, the program’s
acquisition approach has been changed, performance capabilities redefined, and
design refined. These modifications resulted in the current $7.7 billion estimate.
This projection is a more realistic and reliable baseline: it was developed in close
collaboration with NASA, with guidance from a highly qualified independent review
team, and with the benefit of an independent cost estimate. Although the current
                                                            
6 An option for two additional satellites is included in the contract.

7 In prior NOAA-NASA satellite programs, NASA managed the space segment. 

8 Pub. L. No. 110-161, Div. B., Title I, § 112.

9 NOAA must notify the Senate Committees on Appropriations and Commerce, Science, and 


Transportation; and the House Committees on Appropriations and Science and Technology.



                                                               13
 
U.S. Department of Commerce                                      Final Report OIG-19884 

Office of Inspector General                                                January 2010 



estimate does not breach the act’s 20 percent threshold, we continue to encourage
NOAA to work with Congress to reestablish the baseline at the new, more realistic
level.


For more information, view the reports listed below at www.oig.doc.gov:
   •	 Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
      Acquisition Practices (OSE-18291, November 2007)
   •	 Poor Management Oversight and Ineffective Incentives Leave NPOESS
      Program Well Over Budget and Behind Schedule (OIG-17794, May 2006)




                                        14
 
U.S. Department of Commerce                                           Final Report OIG-19884 

Office of Inspector General                                                     January 2010 



American Recovery and Reinvestment Act
Meet the Challenges of Accountability and Transparency with Effective
Oversight of Program Performance, Compliance, Spending, and Reporting


On February 17, 2009, the President signed the American Recovery and
Reinvestment Act of 2009 into law.10 The Recovery Act requires an unprecedented
degree of transparency and accountability and sets out specific responsibilities for
agency staff in managing Recovery Act funds and program operations. Five
operating units of the Department of Commerce—the Economic Development
Administration, Census Bureau, NTIA, NIST, and NOAA, plus OIG—received
$7.946 billion from the Recovery Act, almost double the FY 2009 appropriation.
The OIG has taken a number of steps to implement an appropriate oversight
framework to track the stimulus activities undertaken by Commerce. These steps
included the assignment of dedicated Recovery Act staff, advisory participation in
Department steering committees and working groups, development of training
programs to include fraud awareness, administration of grants and contracts, and
development and execution of a risk-based audit plan. Some of the larger challenges
that Commerce faces, as identified by this OIG oversight, are summarized below.


Balance Expediency of Spending While Meeting Accountability
Requirements
In the past, Commerce agencies have attempted to balance expediency with
accountability. However, the sheer amount of Recovery Act money Commerce
agencies received, coupled with the unique requirements of the Act, will make
ensuring appropriate spending even more of a challenge. Commerce agencies must
spend funds appropriately with little time to prepare for the many new and
expanded programs, grants, and contracts established under the Act. This pressure
to distribute funds quickly to communities and businesses significantly increases
the risks for fraud, waste, and abuse in both Recovery Act-funded activities and
Commerce’s traditionally funded operations.


Meet Recovery Act Contract and Grant Compliance Requirements
The need for a highly capable acquisition and grants workforce emerges at a
difficult time. Commerce (like many federal agencies) lacks a sufficient amount of
skilled contracting, grants, and project management expertise. Hiring and retaining
a skilled acquisition and grants workforce has proven difficult; nevertheless,
Commerce needs to develop and hire skilled contracting, grants, and project
                                                            
10   Pub. L. No. 111-5.


                                                               15
 
U.S. Department of Commerce                                        Final Report OIG-19884 

Office of Inspector General                                                  January 2010 



management personnel to define requirements and manage contracts and grants
that will meet the Recovery Act’s requirements.
Incorporating changes required by the Recovery Act and detailed by OMB into
agency contracting business practices will present another challenge. The Recovery
Act establishes a preference for fixed-priced contracting, while permitting cost-type
contracts where appropriate. Fixed-price contracts are most effective when
government requirements are well defined. To define government requirements,
program offices and skilled contracting officers must invest extra time to
understand program needs and objectives, find potential solutions in the
marketplace, overcome potential miscommunications, and create solicitations that
foster competition. Awarding and administering Recovery Act contracts (and those
funded by regular appropriations) will greatly increase Commerce’s acquisition
workload even as it incorporates the new business practices called for by the
Recovery Act and OMB.
The Recovery Act substantially increases the Department’s contracting and grant
activities, particularly at NIST and NOAA. Such increases place added pressure on
these agencies to find qualified personnel. The added funding also includes a
mandate for prompt contract and grant awards, leaving contracting and grant
offices scant time to adequately accommodate Recovery Act work and other
operations. The Recovery Act has provided a relatively significant funding increase
for NIST and NOAA construction projects. To complete them successfully, these
agencies will need to overcome the inherent risks associated with construction and
dedicate construction managers across Recovery Act grant- and regular
appropriation-funded projects. The construction work also needs to satisfy the
Recovery Act’s Buy American provisions.
Finally, Commerce’s acquisition and grants workforce will need to comply not only
with the myriad laws, regulations, and practices that existed prior to the Recovery
Act but also must quickly understand and effectively implement a host of new
requirements—all while government contracting is under intense scrutiny by the
press, OMB, Congress, and Inspectors General. For instance, OMB has issued
guidance, directed at agencies, that affects grant and contract operations, including:
   •	 Updated Implementing Guidance for the American Recovery and
      Reinvestment Act (M-09-15), which provided government-wide guidance for
      carrying out programs and activities under ARRA
   •	 Implementing Guidance for the Reports on Use of Funds Pursuant to the
      American Recovery and Reinvestment Act of 2009 (M-09-21), which provided
      government-wide guidance for carrying out the quarterly recipient reporting
      and related agency review requirements as outlined in Section 1512 of the
      Act to Department grant and contracting officials to complete a review of
      quarterly recipient reporting
   •	 Improving Government Acquisition (M-09-25), which directed agencies to
      develop plans to save 7 percent of baseline contract spending by the end of FY


                                          16
 
U.S. Department of Commerce                                        Final Report OIG-19884 

Office of Inspector General                                                  January 2010 



       2011 and to reduce by 10 percent the share of dollars obligated in FY 2010 for
       new high-risk contracts
The Department will need to bring together decentralized contracting operations
and change how the government contracts for goods and services.


Meet Agency and Recipient Reporting Requirements
The Recovery Act establishes specific reporting requirements for both agencies and
fund recipients. Federal agencies must report key information such as awards,
obligations, outlays, and major activities on a weekly basis. Fund recipients need to
report on the projects and activities created and their completion status, as well as
job creation and retention. Available to the American public, these data reports are
necessary to reflect the true and accurate use and impact of Recovery Act funds. An
effectively designed internal control structure that detects and prevents errors and
omissions is vital to data integrity.
Ensuring accurate and timely data poses other challenges, such as the manual
nature of select Recovery Act reporting processes and ensuring integrity on data
requirements, such as identifying where recipients perform grant and contract
work, as well as creating jobs. Also, organizations that receive Recovery Act funds
will vary in size and sophistication and will send reports in multiple primary data
formats, resulting in inconsistent or incomplete reporting. Agency review of
recipient data is critical to identifying and mitigating fraud, waste, and abuse of
government funds, but the brief time allotted for agency review of recipient
reporting adds to the difficulty of ensuring completeness and consistency.


Effectively Set Up and Manage the New Broadband Technology
Opportunities Program
A major Recovery Act initiative, NTIA’s Broadband Technology Opportunities
Program (BTOP), faces significant application and pre-award review challenges to
achieving its goals. The program aims to award some $4.55 billion in grants in less
than 18 months, a level of grant activity no Commerce operating unit has ever
before undertaken. The Recovery Act funding will fuel an entirely new program that
expects to permit first-time grant recipients, both for-profit and nonprofit, to
encourage innovative programs and broadband grants in areas unserved or
underserved by traditional commercial broadband providers. This endeavor
requires close coordination among four federal agencies: Department of Agriculture
(on-line grant application process), Federal Communications Commission
(broadband mapping), Department of Commerce (grants management), and
Department of Interior (grant application intake and program management
functions).




                                         17
 
U.S. Department of Commerce                                      Final Report OIG-19884 

Office of Inspector General                                                January 2010 



In the last several months, NTIA has created a program office and obtained
program and grants management support with the help of other federal agencies. In
August, NTIA reported to Congress that they had hired about 80 percent of the
federal staff planned for BTOP. In addition, NTIA entered into six memoranda of
understanding to obtain significant Recovery Act program and grants management
support. There still remain three ways that NTIA can ensure sound management
and timely execution of BTOP.
First, NTIA should seek to extend program office funding beyond FY 2010 to ensure
proper oversight. The Recovery Act does not authorize the NTIA BTOP office
beyond September 30, 2010. Without sufficient funding, the program office will no
longer be able to manage, monitor, or close out grants still underway after
September 30, 2010. However, NTIA can award the 3-year BTOP grants until the
last day that the program office is in operation. Seeking an extension would enable
the agency to continue managing and properly closing out all active grants,
ensuring that grantees meet financial and program reporting requirements.
Second, BTOP needs a rigorous review process to make sure applicants clearly
identify and rank gaps in broadband coverage, as well as submit proposals targeting
areas of greatest need. NTIA must consider implementing peer reviews with the
Federal Communications Commission and the Department of Agriculture to
validate proposals. NTIA must also establish a review process that ensures it
evaluates proposals in a timely manner and in advance of grant award.
Finally, NTIA must ensure and expedite a programmatic environmental assessment
for broadband projects so that grantees are able to complete projects within the
3-year grant period. For example, the programmatic environmental assessment of
NTIA’s $1 billion Public Safety Interoperable Communications grant program took
17 months to complete, and the site-specific environmental reviews took another
24 months. For Recovery Act projects with an emphasis on job creation and prompt
spending, the time spent conducting environmental reviews will delay the
broadband program’s near-term economic benefit.


For more information, view the reports listed below at www.oig.doc.gov:
   •	 More Automated Processing by Commerce Bureaus Would Improve Recovery
      Act Reporting (ARR-19779, December 2009)
   •	 Commerce Has Implemented Operations to Promote Accurate Recipient
      Reporting, but Improvements Are Needed (ARR-19847, October 2009)
   •	 NIST Construction Grants and NOAA Habitat Restoration Grants are
      Competitively Awarded but Improvements Are Recommended for NIST’s
      Selection Documentation, NOAA’s Management of Applicant Risk, and
      Commerce’s Pre-Award Guidance on Background Checks (ARR-19841,
      October 2009)



                                        18
 
U.S. Department of Commerce                                   Final Report OIG-19884 

Office of Inspector General                                             January 2010 



   •	 Commerce Experience with Past Relief and Recovery Initiatives Provides
      Best Practices and Lessons Learned on How to Balance Expediency with
      Accountability (ARR-19692, May 2009)
   •	 NTIA Should Apply Lessons Learned from Public Safety Interoperable
      Communications Program to Ensure Sound Management and Timely
      Execution of $4.7 Billion Broadband Technology Opportunities Program
      (ARR-19583, March 2009)


The following reviews are in progress:
   •	 Review of the 2010 Partnership Program and American Reinvestment and
      Recovery Act Spending
   •	 Evaluation of the 2010 Group Quarters Validation Operation's Impact on
      Producing a High-Quality Address List
   •	 Review of NTIA's Processes for Broadband Technology Opportunities
      Program




                                         19
 
U.S. Department of Commerce                                                   Final Report OIG-19884 

Office of Inspector General                                                             January 2010 



United States Patent and Trademark Office
Address the Patent Office’s Resource and Process Issues


A decade ago, Congress gave USPTO independent control of its management and
administrative functions as a performance-based organization.11 With these
flexibilities came measurable goals, performance targets, and expectations that
USPTO would be better positioned to administer the granting of patents and
registering of trademarks.
Between FY 2000 and FY 2009, however, the number of patent applications
received annually has increased from almost 312,000 to over 485,000, and the total
length of time to process a patent has grown from around 25 months to over
34 months. During the same period, the backlog of applications waiting to be
reviewed has grown from approximately 308,000 to more than 770,000. These long
waiting periods for patent review and the large number of pending applications can
negatively affect innovation and U.S. economic competitiveness within the global
economy if new technologies are not invented, invested in, and disclosed in a timely
fashion.
USPTO faces immense and varied challenges in addressing the persistent problems
of long waiting periods and application backlogs while also ensuring that quality
remains integral to the patent review process. Recent initiatives included hiring
additional patent examiners to address the backlog; however, simply adding to the
workforce without making improvements to processes and quality control may not
be enough. USPTO must consider how to reform and reengineer the various
components of the patent application process to ensure timely and high-quality
application review. Further, USPTO’s IT systems need to be updated to ensure that
critical systems and data are able to process increasingly complex applications
safely and securely, and provide greater management oversight.
Finally, USPTO must address challenges with its funding mechanisms and fee
structure. USPTO is funded entirely by application and maintenance fees paid by
patent and trademark applicants and owners. Congress is also involved in this
process by setting many of the fees legislatively and establishing a ceiling, through
the appropriations process, as to the maximum amount of fees USPTO may use in a
given year.
In November 2008, OIG’s Top Management Challenges Report suggested that
USPTO’s unique financing structure could become increasingly risky. The recent
downturns in the U.S. and global economies quickly showed the structure’s
vulnerabilities. In spring 2009, USPTO projected a possible budget shortfall of

                                                            
 American Inventors Protection Act of 1999, Pub. L. No. 106-113, Title IV, §§ 4001-4808 (codified as
11

amended in scattered sections of 35 U.S.C.).


                                                               20
 
U.S. Department of Commerce                                        Final Report OIG-19884 

Office of Inspector General                                                  January 2010 



almost $100 million due to a reduction in the number of patent applications filed
and an associated decrease in the fees collected for these applications, along with a
decline in the collection of maintenance fees for existing patents. To address the
projected shortfall in collections, USPTO took steps to align its costs with the
revised projections for fee collections. These steps included deferring the hiring of
patent examiners as well as curtailing or suspending other expenses such as
overtime pay and training.
These reductions increase the risk to USPTO’s ability to operate effectively in
current and future years, and its capacity to ensure the United States’ intellectual
property system encourages investment in innovation and contributes to a strong
global economy. More immediately, USPTO may not be able to process as many
patent applications, which will add to the backlog instead of working towards
reducing it. In effect, fewer maintenance fees will be available to collect in the
future because USPTO issued fewer patents today.

The new Under Secretary of Commerce for Intellectual Property and Director of
USPTO has publicly acknowledged these and other struggles faced by USPTO in
providing an efficient and timely patent system that supports American innovation
and economic success. To meet the Secretary of Commerce’s directive to reduce
patent pendency on an aggressive schedule, reform efforts are being considered on
many fronts. These include changes to the examination process itself, the system for
giving examiners credit for their work, and the process for challenging patent
decisions. Along with the possibility of increasing fees, USPTO is also considering
new financing tools, such as fee-setting authority, operating reserves, and
borrowing authority, that would permit USPTO to respond to changes in the
economy or the demand for its products and services. USPTO must act decisively
and undertake both short- and long-term administrative, regulatory, and legislative
solutions to address these challenges.


The following reviews are in progress:
   •   Audit of USPTO’s Quality Assurance Process
   •   Audit of USPTO’s Budget Development Process




                                          21
 
U.S. Department of Commerce                                        Final Report OIG-19884 

Office of Inspector General                                                  January 2010 



Other Challenges for the Department of Commerce


The historical mission of the Department is “to foster, promote, and develop the
foreign and domestic commerce” of the United States. Over time this mission has
expanded to include supporting the country’s economic and technological
development, fostering its advancement in the global marketplace, and managing
the 12 operating units that make up the Department. In addition to the five top
management challenges, we have identified several organizational challenges facing
the Department in the coming year. These challenges are based on the continuing
need to establish effective, consistent internal practices and the need to maintain
the highest standards for project and acquisition oversight Department-wide.


Centralized Management and Oversight
It will be a complex, but necessary, organizational challenge for the Department to
establish consistent internal operations to support all of its operating units.
However, by doing so it will be better positioned to provide efficient and reliable
support to the Secretary’s priorities. The Department needs to continue its efforts to
centralize management and oversight in order to make the whole organization more
efficient, consistent, and productive. The Department’s operating units have long-
standing and independent business models, cultures, and practices. This
decentralized structure has created obstacles to Department efforts to integrate and
administer internal processes like financial services, human resources, grant and
contract management, and major acquisitions.
For example, the administrative management structure of the Department gives its
CIO little authority over the IT security operations of Commerce’s operating units,
making the IT security challenge (see page 7) even more difficult to manage. In
addition, prior to the Recovery Act the Department awarded an average of
$1.5 billion in grants to over 1,600 recipients annually and approximately $2 billion
in contracts to nearly 6,000 contractors annually. Yet the Department’s Office of
Acquisition Management has similarly limited authority over the various agencies’
grants and procurement offices, resulting in inconsistent approaches to grant and
contract management across the Department and adding to the difficulty in
overseeing the effectiveness of these operations and programs.
Efforts to achieve greater consistency have been slow. To illustrate, grants are
managed by three of the Department’s seven grant-making agencies, which cross-
service the other grant agencies using three different IT systems. The Department
has been working since 2003 to migrate all Department grants management
operations to NOAA’s Grants Online system, but this effort is not projected to be
completed until 2011.




                                          22
 
U.S. Department of Commerce                                       Final Report OIG-19884 

Office of Inspector General                                                 January 2010 



Major System Acquisitions
In a related challenge, the Department and its operating units must develop
effective processes for planning, managing, and overseeing major system
acquisitions. In FY 2010, the Department plans to spend $3 billion on IT
investments (excluding grants). The lack of cohesive policies and procedures for
program and project management and oversight has contributed to many of these
acquisitions—such as the decennial handheld computers (see page 1), as well as the
NPOESS and GOES-R environmental satellite programs (see page 11)—becoming
mired in cost overruns and developmental delays. This weakness also leaves the
Department without adequate visibility into progress and risks on major system
acquisitions, which results in costly delays in identifying and correcting problems.
The Department has not been successful in updating its policies and oversight
approach for major systems acquisition. The effort was begun in 2006 in response to
OIG and GAO recommendations, and while some improvements in Departmental
oversight have been made, formal policies and governance have yet to be
established. The Deputy Secretary has recently convened a steering committee to
develop a Department-wide major investment oversight policy. Developing formal,
unified policies and procedures for complicated acquisitions will ultimately save
time, money, and effort in all of the Department’s operating units. The Department
must exercise effective oversight to ensure system acquisitions are adequately
planned and conducted according to best practices, and that they meet their cost,
schedule and performance goals.


Grant and Contract Management Workforce
Sufficient staffing for the grant and contract management workforce has also been a
long-standing issue for the Department. Now, primarily as a result of the Recovery
Act, the Department and its operating units are issuing more grants and contracts
than ever (see page 15). But the Department’s ability to appropriately issue and
oversee grants and contracts is hampered by a serious shortage of skilled, specially
trained staff. To make sure grants and contracts are issued effectively and funds
properly spent, the Department must build up the size and skills of its grant and
contract workforce and improve its oversight processes.


NOAA Headquarters Leadership Structure
NOAA continues to face the challenge of carrying out its mission to conserve the
nation’s fragile oceans and living marine resources while ensuring a vital U.S.
commercial fishing industry. This corresponds to a major component of the
Secretary’s Green and Blue Business and Jobs priority of securing economic
opportunities and job creation while conserving ocean and coastal resources. NOAA
recently announced plans to realign its headquarters’ leadership structure in order
to streamline decision making and provide greater policy-level attention to day-to-


                                         23
 
U.S. Department of Commerce                                       Final Report OIG-19884 

Office of Inspector General                                                 January 2010 



day management and oversight of its programs. The realignment is intended to
provide additional strategic guidance and leadership direction for NOAA’s
stewardship responsibilities, including fisheries. Nevertheless, balancing its
competing mandates for maintaining and improving marine and coastal ecosystems
while supporting marine commerce and transportation remains an acutely difficult
challenge.


Commerce Headquarters Renovation
Finally, the Department’s headquarters, the General Services Administration-
owned Herbert C. Hoover Building in Washington, D.C., is undergoing an extensive
renovation. The renovation will take about 13 years and is estimated to cost almost
$960 million to complete. The project is being funded mostly by the General
Services Administration, but has the greatest potential to disrupt Commerce
operations and affect its workforce. Accordingly, the Department has a primary
interest in ensuring the renovation is completed on time, within budget, and free of
fraud. To meet this goal, Commerce and General Services Administration need to
provide comprehensive oversight throughout the project’s life cycle.


For more information, view the reports and correspondence listed below at
www.oig.doc.gov:
   •	 The 2010 Census and Integrated Communications Campaign, Testimony
      before the before the Subcommittee on Information Policy, Census, and
      National Archives Committee, on Oversight and Government Reform, House
      of Representatives (September 2009)
   •	 Recommendations from 2010 Census: First Quarterly Report to Congress
      (OIG-19791-l, August 2009)
   •	 2010 Census: First Quarterly Report to Congress (OIG-19791-1, August 2009)
   •	 NTIA Should Apply Lessons Learned from Public Safety Interoperable
      Communications Program to Ensure Sound Management and Timely
      Execution of $4.7 Billion Broadband Technology Opportunities Program
      (ARR-19583, March 2009)
   •	 Letter to Senator Snowe Regarding the Northeast Fisheries Science Center
      (February 2009)
   •	 Successful Oversight of GOES-R Requires Adherence to Accepted Satellite
      Acquisition Practices (OSE-18291, November 2007)
   •	 Annual Follow-Up Report on Previous Export Control Recommendations, as
      Mandated by the National Defense Authorization Act for Fiscal Year 2000, as
      Amended (IPE-18546, March 2007)



                                         24
 
U.S. Department of Commerce                                                 Final Report OIG-19884 

Office of Inspector General                                                           January 2010 



       •	 FDCA Program for 2010 Census Is Progressing, but Key Management and
          Acquisition Activities Need to Be Completed - Inspection (CENSUS-OSE-
          17368, August 2005)
       •	 MAF/TIGER Redesign Project Needs Management Improvements to Meet Its
          Decennial Goals and Cost Objective - Evaluation (ESA-OSE-1572, September
          2003)
       •	 BXA Needs to Strengthen Its ECASS Modernization Efforts to Ensure Long-
          Term Success of the Project15 (IPE-14270, February 2002)


The following reviews are in progress:
       •	 The Department’s Grants Management Oversight Activities to Help Prevent
          and Detect Fraud
       •	 Inquiry into NOAA Enforcement Practices
       •	 Review of NOAA Habitat Restoration Center’s Grants Competitive Processes
          and Practices
       •	 Review of Pacific States Marine Fisheries Commission
       •	 Analysis of FDCA Problems
 




                                                            
15In April 2002, the Bureau of Export Administration (BXA) changed its name to the Bureau of
Industry and Security (BIS).


                                                               25
 
U.S. Department of Commerce                                        Final Report OIG-19884 

Office of Inspector General                                                  January 2010 



                              Acronyms and Abbreviations


BTOP                  Broadband Technology Opportunities Program
C&A                   certification and accreditation
CIO                   Chief Information Officer
CSAM                  Cyber Security Assessment and Management
FDCA                  field data collection automation
FISMA                 Federal Information Security Management Act
GAO                   Government Accountability Office
GOES-R                Geostationary Operational Environmental Satellite-R Series
NASA                  National Aeronautics and Space Administration
NIST                  National Institute of Standards and Technology
NOAA                  National Oceanic and Atmospheric Administration
NPOESS                National Polar-orbiting Operational Environmental Satellite
                      System
NRFU                  nonresponse follow-up
NTIA                  National Telecommunications and Information Administration
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
OSTP                  Office of Science and Technology Policy
PBOCS                 paper-based operations control system
USPTO                 United States Patent and Trademark Office




                                            26
 
